EVALUATION REPORT

             REDACTED VERSION

         Information System Security
      Evaluation of the Technical Training
          Center – Chattanooga, TN

           OIG-09-A-11 July 22, 2009




All publicly available OIG reports are accessible through
                    NRC’s Web site at:
http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                        Office of the Inspector General
                 Information System Security Evaluation of the
                  Technical Training Center – Chattanooga, TN




                                Contract Number: GS-00F-0001N
                                 Delivery Order Number: 20291

                                                        July 21, 2009




The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official Nuclear Regulatory
                       Commission position, policy, or decision, unless so designated by other official documentation.
                                                                            Information System Security Evaluation of
                                                                      the Technical Training Center – Chattanooga, TN


EXECUTIVE SUMMARY


BACKGROUND

           The Nuclear Regulatory Commission’s (NRC) Technical Training Center (TTC) was
           established in Chattanooga in 1980 as part of an expanded program of training based
           primarily on lessons learned from the Three Mile Island incident. Chattanooga was
           originally selected as the site for enhanced inspector training because of the need to make
           greater use in the agency’s technical training programs of reactor simulators owned by
           the Tennessee Valley Authority. Since 1980, the NRC has purchased its own simulators
           and currently has four operating at the Chattanooga site.

           On December 17, 2002, the President signed the E-Government Act of 2002, which
           included the Federal Information Security Management Act (FISMA) of 2002. FISMA
           outlines the information security management requirements for agencies, which include
           an annual independent evaluation of an agency’s information security program1 and
           practices to determine their effectiveness. This evaluation must include testing the
           effectiveness of information security policies, procedures, and practices for a
           representative subset of the agency’s information systems. FISMA also requires
           assessment of compliance with FISMA requirements and related information security
           policies, procedures, standards, and guidelines. FISMA requires the annual evaluation to
           be performed by the agency’s Inspector General or by an independent external auditor.

           The NRC Office of the Inspector General (OIG) requested that the four NRC regional
           offices and the TTC be included in the independent evaluation of the agency’s
           implementation of FISMA for fiscal year 2009. Information security policies,
           procedures, and practices at the regional offices and the TTC were last assessed in 2003
           and 2006. This report describes evaluation findings for the TTC.

PURPOSE

           The objectives of the information system security evaluation of the TTC were to:

                  Evaluate the adequacy of NRC’s information security program and practices for
                   NRC automated information systems as implemented at the TTC.
                  Evaluate the effectiveness of agency information security control techniques as
                   implemented at the TTC.
                  Evaluate corrective actions planned and taken as a result of previous OIG
                   evaluations.




1
    For the purposes of FISMA, the agency uses the term “information system security program.”
                                                             Information System Security Evaluation of
                                                       the Technical Training Center – Chattanooga, TN


RESULTS IN BRIEF

      The TTC has made improvements in its implementation of NRC’s information system
      security program and practices for NRC automated information systems since the
      previous evaluations in 2003 and 2006. All corrective actions from the previous
      evaluations have been implemented. However, the information system security practices
      are not always consistent with the NRC’s automated information systems security
      program as defined in Management Directive (MD) and Handbook 12.5, NRC Automated
      Information Systems Security Program, other NRC policies, FISMA, and National
      Institute of Standards and Technology (NIST) guidance. While many of the TTC’s
      automated and manual security controls are generally effective, some security controls
      need improvement. Areas needing improvement included: physical and environmental
      security controls, continuity of operations and emergency planning, and configuration
      management. Specifies cannot be presented in this publically released version of the
      report.

RECOMMENDATIONS

      This report makes recommendations to the Executive Director for Operations to improve
      NRC’s information system security program and implementation of FISMA at the TTC.


THE FULL REPORT CONTAINS SECURITY RELATED INFORMATION THAT IS
NOT RELEASED TO THE PUBLIC. FOR ADDITIONAL INFORMATION, PLEASE
CONTACT THE OFFICE OF THE INSPECTOR GENERAL AT 301-415-5915.
